SUPREME COURT OF THE UNITED STATES
No. 20-54

BRIDGE AINA LE‘A, LLC,
Petitioner,
ve.
STATE OF HAWAII LAND USE COMMISSION,

Respondent,

 

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF
OF AMICI CURIAE OWNERS’ COUNSEL OF AMERICA,
NATIONAL ASSOCIATION OF REVERSIONARY PROPERTY
OWNERS, NFIB SMALL BUSINESS LEGAL CENTER, REASON
FOUNDATION, AND PROFESSOR SHELLEY ROSS SAXER was
typeset using Century Schoolbook (12-point for the text and 10-point
for the footnotes) and contains 4,536 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on August 21, 2020

 
   

HEARNE, II
Couksel of Record for Amici Curiae
